<html>
<title> - DEPLOYMENT OF U.S. FORCES IN CENTRAL AFRICA AND IMPLEMENTATION OF THE LORD'S RESISTANCE ARMY DISARMAMENT AND NORTHERN UGANDA RECOVERY ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 

                  DEPLOYMENT OF U.S. FORCES IN CENTRAL 
                AFRICA AND IMPLEMENTATION OF THE LORD'S 
                    RESISTANCE ARMY DISARMAMENT AND 
                      NORTHERN UGANDA RECOVERY ACT 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2011

                               __________

                           Serial No. 112-77

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

70-947 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Yamamoto, Principal Deputy Assistant 
  Secretary of State for African Affairs, U.S. Department of 
  State..........................................................     8
The Honorable Alexander Vershbow, Assistant Secretary of Defense 
  for International Security Affairs, U.S. Department of Defense.    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Yamamoto: Prepared statement................    11
The Honorable Alexander Vershbow: Prepared statement.............    17

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Statement by the Honorable James M. Inhofe, a U.S. 
  Senator from the State of Oklahoma.............................    49
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    51
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    53
The Honorable Karen Bass, a Representative in Congress from the 
  State of California: Prepared statement........................    55


 DEPLOYMENT OF U.S. FORCES IN CENTRAL AFRICA AND IMPLEMENTATION OF THE 
  LORD'S RESISTANCE ARMY DISARMAMENT AND NORTHERN UGANDA RECOVERY ACT

                              ----------                              


                       TUESDAY, OCTOBER 25, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
That was my gavel. We improvise. But before we begin, I'd like 
to acknowledge the presence of Ms. Evelyn Apoko.
    Evelyn, is that you right there? Thank you, Evelyn. Evelyn, 
if you could stand a second? Thank you. Evelyn is an LRA 
survivor who has traveled to Washington to witness this 
important hearing firsthand. We thank her for coming and for 
her continued efforts on behalf of children impacted by this 
horrific conflict.
    After recognizing myself and the ranking member, Mr. 
Berman, for 7 minutes each for our opening statements, I will 
recognize the chair and ranking member of the Africa Global 
Health and Human Rights Subcommittee for 3 minutes and the 
chair and ranking member of the Terrorism, Nonproliferation, 
and Trade Subcommittee also for 3 minutes each for their 
opening remarks.
    We will then hear from our witnesses and without objection 
the witnesses' prepared statements will be made a part of the 
record. And members may have 5 legislative days to insert 
statements and questions for the record subject to the length 
limitations in the rules.
    The Chair now recognizes herself for 7 minutes. The 
Department of State has included the Lord's Resistance Army, 
LRA, on the ``Terrorist Exclusion List'' since 2001. In 2008, 
its leader, Joseph Kony, was designated as a ``Specially 
Designated Global Terrorist'' (SDGT). The LRA is responsible 
for one of the longest, most violent, yet most under reported 
conflicts in Africa--a conflict which has spread from Northern 
Uganda to South Sudan, the Democratic Republic of the Congo, 
and Central African Republic--and threatens costly U.S. 
investments in peace and stability in the region. It is a 
predatory, guerilla force which has perpetrated some of the 
most deplorable human rights atrocities known to man.
    The LRA makes no attempt to hold territories but murders, 
mutilates, tortures, rapes and loots with impunity. They move 
in small groups with limited communication, striking remote 
villages, slaughtering civilians, abducting woman and children 
to serve as fighters, porters, and sex slaves. It has been 
estimated that more than 80 percent of the LRA is comprised of 
abducted children. These children are forced to commit 
atrocities in front of their families and participate in 
bizarre indoctrination rituals before being forced to fight. 
Those who manage to escape find it difficult, if not 
impossible, to return home.
    But we are not here today to determine whether Joseph Kony 
is evil. We know that he is. We are here because in May 2010, 
the President signed into law the Lord's Resistance Army 
Disarmament and Northern Uganda Recovery Act. With the backing 
of thousands of committed advocates, including from my own 
District, and with over 200 co-sponsors in the House and some 
64 co-sponsors in the Senate, the act enjoyed overwhelming 
support. It required the President to develop a comprehensive 
strategy to deal with the LRA and established that it shall be 
the policy of the United States to: ``Provide political, 
economic, military, and intelligence support for viable 
multilateral efforts to protect civilians, apprehend or 
eliminate top LRA commanders, and disarm and demobilize 
remaining LRA fighters.''
    The President's strategy was released in November 2010. It 
set four strategic objectives: (1) increased protection of 
civilians;(2) apprehension to or ``removal'' of Kony and other 
senior LRA commanders; (3) promotion of defections from the LRA 
and the disarmament, demobilization, and reintegration of 
remaining LRA combatants; and lastly, provision of humanitarian 
relief to affected communities.
    The strategy emphasized that the U.S. will ``work with 
national government and regional organizations'' to accomplish 
these goals. What steps did the U.S. undertake in the last year 
to achieve the objectives outlined in this strategy? That is 
what we will be focusing on with our witnesses.
    Further, I would to ask our distinguished witnesses to 
summarize for the committee, what progress had been achieved 
toward meeting the strategic objectives before the President's 
recent announcement that U.S. troops were being deployed to 
central Africa? On October 14, 2011, the President transmitted 
a report, consistent with the War Powers Resolution, informing 
the Congress that: ``In furtherance of the Congress' stated 
policy, I have authorized a small number of combat-equipped 
U.S. forces to deploy to central Africa to provide assistance 
to regional forces that are working toward the removal of 
Joseph Kony from the battlefield.'' He further stated: 
``Although the U.S. forces are combat equipped, they will only 
be providing information, advice, and assistance to partner 
nation forces, and they will not themselves engage LRA forces 
unless necessary for self-defense.''
    As the sole House committee of jurisdiction for the LRA Act 
and the primary committee of jurisdiction over the War Powers 
Act, it is incumbent upon us to ensure that this action 
complies with both the letter and the spirit of the law and 
further U.S. national security interests. Pertinent information 
related to this mission, such as the anticipated cost, the 
scope the duration of this deployment, was omitted from the 
report to Congress. We need clarity on the rules of engagement, 
the mission parameters, and the definition of success, as well 
as how U.S. military presence in central Africa furthers U.S. 
national security interests and the objectives outlined in the 
President's November 2010 strategy. What is the precise nature 
of the assistance that will be provided to our partners, and 
how will these partners be vetted? Does the submission of the 
October 14th report to Congress start the clock on reporting 
and authorization requirements, consistent with the War Powers 
Resolution? If not, why? Does the administration interpret the 
LRA Act as an authorization of use of force?
    We intend to address these issues and more throughout the 
course of the hearing.
    Thank you to the Assistant Secretary Vershbow for attending 
and the Ambassador, for making yourselves available to testify 
on this very important issue today. We thank both of you, 
gentlemen.
    I now am pleased to recognize my good friend, Mr. Berman, 
the ranking member for his opening remarks.
    Mr. Berman. Thank you very much, Madam Chairman. Two weeks 
ago, the Obama administration announced that it would send 
about 100 U.S. military advisors to central Africa to support 
regional efforts to defeat the Lord's Resistance Army or LRA. 
Following that announcement, many questions were raised about 
the deployment. Why the LRA? Why now? And what specific role 
will our forces play on the ground? This timely hearing 
provides an excellent opportunity to discuss those important 
issues.
    As noted in President Obama's October 14th letter to the 
Speaker, and as reflected in the title of this hearing, it is 
Congress that played a leading role in putting the LRA on our 
foreign policy agenda. For years, the House and Senate passed 
resolutions drawing attention to the LRA's reign of terror. And 
in 2010, as noted, Congress passed The Lord's Resistance Army 
Disarmament and Northern Uganda Recovery Act. That bipartisan 
legislation which President Obama signed into law, required the 
administration to develop a comprehensive strategy for 
dismantling the LRA and protecting civilians throughout the 
region.
    We've all heard about the horrors perpetrated by the LRA 
and its deranged leader, Joseph Kony: Mass killing, rape, 
mutilation of innocent civilians, children forced to kill their 
neighbors and family members, more than 20,000 children 
abducted and forced to become soldiers or sex slaves, nearly 2 
million people displaced, and tens of thousands murdered.
    While the LRA may not pose a direct national security 
threat to the U.S. in narrowly-defined terms, it does threaten 
the stability of a large swath of central Africa, the size of 
California. This region includes South Sudan, the newest nation 
in the world, whose independence efforts the U.S. strongly 
supported; Uganda, one of America's strongest allies in the 
fight against Al-Shabaab in Somalia, al-Qaeda linked terrorist 
organization; the Central African Republic and the Democratic 
Republic of Congo, two countries that face significant 
challenges policing their territories and whose civilians are 
currently suffering the brunt of LRA's atrocities.
    I believe it is squarely in our national interest to build 
the capacity of allied forces so that they can fight bad actors 
on their own and to support our allies when they need 
assistance as we expect them to do for us.
    The U.S. and the international community have long 
recognized that the LRA poses a serious threat to the stability 
of central Africa and have taken a number of steps to stop 
their barbaric behavior. In 2005, the International Criminal 
Court indicted Joseph Kony and three of his commanders for 
crimes against humanity. The U.S. placed the LRA on the 
terrorist exclusion list and Joseph Kony on the specially-
designated global terrorist list.
    From 2006 to 2008, Uganda tried to negotiate a peace 
agreement with the group only to have Kony walk away from the 
final deal. Uganda, Southern Sudan and the Democratic Republic 
of the Congo then launched a joint military operation, but 
failed to apprehend Kony or stop the LRA.
    I'm very hopeful that the administration's comprehensive 
strategy, including the deployment of a modest number of 
combat-equipped advisors will finally help turn the tide in the 
struggle against the LRA. While most of the focus has been on 
the military dimension of the strategy, it's important to 
remember that civilian-led programs are also an integral part 
of this effort. These include constant diplomatic engagement 
with all of the central Africa countries to maintain strong 
cooperation; a robust demobilization, disarmament, 
repatriation, resettlement, and reintegration program; 
effective public awareness campaigns to encourage child 
soldiers and mid-ranking LRA members to abandon the group; and 
reconstruction assistance for devastated communities.
    I look forward to hearing from our witnesses about the 
goals and expectations for the military deployment, as well as 
the details of these critical civilian efforts.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman, for your 
opening statement. I'm pleased to yield 3 minutes to Mr. Royce, 
the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Royce. Thank you, Madam Chairman. The LRA has been 
pillaging central Africa for a generation now under the 
sadistic Joseph Kony. That group exists for one reason: To 
kill, capture and to resupply for the next plunder. There is no 
other reason for the Lord's Resistance Army's existence. And 
this savagery has landed Kony and his LRA on U.S. terrorism 
lists. His targets are children; 70,000 girls and boys have 
been abducted and I must say it's good to see Evelyn here. We 
appreciate her efforts on behalf of other abducted girls and 
boys. But one boy told how he was forced to kill eight other 
children. The victims were surrounded in a circle. Children 
were forced to take turns bashing them with a bat in a 
collective kill. Now if this is not a crime against humanity, I 
don't know what is. And it was orchestrated by Kony. And with 
these horrors in mind, Congress passed legislation to counter 
the LRA threat.
    We pressed the administration to be bold, to develop a plan 
to help apprehend or remove Joseph Kony and his top commanders 
from the battlefield. A broad coalition of young activists was 
key to passing this legislation. So the administration is now 
sending small teams, specializing in training foreign units to 
give information and advice. This is the reason the U.S. Africa 
Command was created. This mission, which recognizes the need 
for a light footprint is targeted assistance. This is far from 
the peacekeeping model that has proven unsuccessful and 
wasteful elsewhere.
    The U.S. has made a big commitment in South Sudan. The LRA 
threatens to destabilize this new country. We provided 
humanitarian relief when LRA attacks forced millions to flee 
their homes. This deployment seeks to eliminate the root of 
these problems and the need for these commitments.
    The Africans aren't sitting on their hands. The Ugandans 
are fighting al-Qaeda terrorists in Somalia, but they'd like 
some help getting Kony. That is a fair deal. Sometimes just 
getting rid of one person does make a big difference. History 
is full of captivating leaders with bad ideas who do great 
damage. Liberian Charles Taylor devastated neighboring Sierra 
Leone. And after his removal, the region is mainly peaceful. 
Kony's removal won't guarantee peace, but it is the one thing 
that makes peace possible in that region. We tried this mission 
once before against Kony in late 2008. Let's succeed now at 
sidelining this terrorist.
    Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Royce. I'm 
pleased to yield 3 minutes to Mr. Payne, the ranking member on 
the Subcommittee on Africa, Global Health, and Human Rights.
    Mr. Payne. Thank you, Madam Chair. Thank you very much for 
calling this very important hearing and <greek-l>our 
deg.Ranking Member Berman.
    After years of congressional bipartisan support and 
resounding support from the American people, the administration 
has taken action to bring an end to the predatory military 
group known as the Lord's Resistance Army or the LRA. Over the 
last nearly 25 years, the LRA has murdered, raped, abducted 
tens of thousands of innocent men, women, and children. In June 
2011 alone, the LRA reportedly carried out as many as 52 
attacks, killing 32 civilians and abducting 39 while looting 
the villages. I was in Uganda in the early '90s when we heard 
about the Lord's Resistance Army who at that time, with the 
support of Bashir from Sudan, was reaping havoc on the 
community.
    There is no doubt that without bold and sustained U.S. 
action, Joseph Kony, the brutal leader of the LRA and his gang, 
will increase their attacks on civilians and the abduction of 
children to be soldiers. Kony has taken advantage of the 
growing security vacuum in the LRA-affected areas and appears 
to be regrouping and reorganizing the LRA with the large number 
of senior commanders recently from the Central African 
Republic.
    In August, I traveled with CARE to eastern Congo where I 
met with women who were raped and sexual violence was used as a 
weapon of war by Joseph Kony. I spoke to women there who had 
been victimized and some of them lost their children, ages 11 
and 12, abducted from their villages.
    I'm looking forward to hearing from our witnesses today 
about the details of the deployment and the strategy that will 
be used. I was very pleased that my friend, Senator Inhofe, 
recently stated on the Senate floor the statement that the LRA 
must be eliminated. And he said that we are not at war with the 
LRA. The troops are specifically prohibited from any kind of 
combat aside from self defense.
    As you know, last year we passed the LRA Resistance, 
Disarmament in Northern Uganda Act and the bill directs the 
administration to develop a plan. The President announced 
expressly that the troops will follow the letter of the law.
    I have gotten in my District alone over 13,000 people who 
have called or have written saying that we should do something 
to eliminate this scourge from the face of the earth. And I 
strongly support the President's action. We must eliminate this 
murderer of known people and we have a right to protect. I urge 
our Government to go after this with all earnest, with training 
the troops in Uganda to do the job.
    With that, I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Payne, for 
that eloquent statement. I will now yield 1 minute to any 
members who wish to make opening statements. Mr. Fortenberry 
had indicated that he would like to make an opening statement. 
He's recognized for 1 minute.
    Mr. Fortenberry. Thank you, Madam Chair, for convening this 
important and timely hearing. I believe that it's important for 
the public to know that we never take lightly the use of 
military force and personnel around the world. But the U.S. 
forces are engaged in more than 50 countries around the world 
and more than 1,000 forces are providing support in more than 
20 African countries alone.
    Many Americans are rightly concerned about the magnitude of 
our military presence throughout the world, but I am hopeful 
that this limited military and technical assistance mission 
which has been discussed and approved on multiple occasions by 
the House and the Senate is critical to both our national 
security as well as global stability.
    Unfortunately, I fear there is widespread information about 
the current mission and even a defense of the Lord's Resistance 
Army. This body and good Americans watching the hearing right 
now know that the Lord's Resistance Army has terrorized central 
Africa with impunity for more than 25 years. It's leader, 
Joseph Kony, is a war criminal guilty of unspeakable crimes.
    Chairman Ros-Lehtinen. The gentleman's time has expired. 
Thank you.
    Mr. Carnahan is recognized for 1 minute.
    Mr. Carnahan. Thank you, Madam Chair, and Ranking Member 
Berman for holding this hearing regarding the U.S. Government's 
strategy to end atrocities of the Lord's Resistance Army in 
central Africa. With the administration's recent deployment of 
100 military advisors to the region, this hearing is especially 
timely and helpful.
    The LRA led by Joseph Kony has terrorized civilian 
populations in Uganda, Southern Sudan, Central African Republic 
and the Democratic Republic of the Congo for over two decades. 
Its tactics have included the employment of child soldiers, 
sexual violence, widespread killings, abductions and 
enslavement. The United Nations estimates that 385,000 people 
have been displaced as a result of LRA brutality.
    Last Congress, this body took an important step in passing 
the LRA Disarmament in Northern Uganda Recovery Act reaffirming 
the U.S. efforts to support regional partners in combating the 
LRA. The deployment of military advisors is but one pillar of 
the comprehensive strategy. I look forward to an update on this 
broader approach including humanitarian assistance, 
reconciliation and reintegration of post-conflict recovery.
    Madam Chair, I yield back.
    Chairman Ros-Lehtinen. Thank you very much. I'm very 
pleased to yield my friend, Ms. Buerkle, the vice chair of the 
Subcommittee on Terrorism, Nonproliferation, and Trade.
    Ms. Buerkle. Thank you, Madam Chair. In the last decade, 
the LRA has killed thousands of innocent civilians, displaced 
hundreds of thousands of people and most horrifically, used 
thousands of abducted children to carry out its campaign of 
terror against the people of Uganda and their neighbors in 
central Africa.
    The President's recent authorization of combat-equipped 
U.S. forces to deploy in central Africa to work with regional 
partners toward the removal of Joseph Kony is ostensibly in 
support of the 2010 strategic objectives.
    I look forward to hearing the perspectives from our 
witnesses here this morning on the wisdom and on the 
effectiveness of the proposed actions involving U.S. forces in 
central Africa.
    Thank you, Madam Chairman. I yield back.
    Chairman Ros-Lehtinen. I thank the gentlelady. Mr. Connolly 
of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
our witnesses today. The LRA is a destabilizing presence in 
Africa. And the decision by the President to dispatch 100 
military advisors to assist in the effort to address that 
threat is consistent, it seems to me, with congressional intent 
in the passage of previous legislation.
    It is important and we need to hear in the testimony today, 
however, exactly what the rules of engagement are going to be 
and how the United States in a very specific and targeted way, 
which I certainly support, can be of assistance without being 
dragged into somebody else's right in central Africa. The 
President has demonstrated leadership in Libya in the fight 
against terrorism and I think he's demonstrated leadership here 
in this limited strategic and targeted intervention.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Manzullo, the 
chair of the Subcommittee on Asia and the Pacific is recognized 
for 1 minute.
    Mr. Manzullo. Thank you, Madam Chairman, for calling this 
important hearing. The LRA is, without a doubt, a heinous and 
horrible group that have brutally murdered, tortured, and raped 
hundreds of thousands of people in Uganda, in the border 
regions between the Central African Republic, South Sudan, and 
the Democratic Republic of the Congo. In their reign of terror 
is obviously welcome our concern regarding the President's 
report to Congress is that this mission may be an expansion of 
U.S. military presence in a role that does not directly bolster 
the national security of our nation. The announcement that this 
was occurring, I believe came out on a Friday afternoon just 
before members were breaking for a week to go back for our 
District work periods.
    I have a lot of concerns, a lot of anxious moments about 
whether or not the number of troops will grow to 200, 300 or 
even more. With this in mind and despite having these concerns 
I'll try to reserve judgment of this deployment until there's 
more information regarding the size and the scope of the 
operation including an exit strategy.
    Thank you.
    Chairman Ros-Lehtinen. I thank the gentleman. And now the 
chair is pleased to welcome our witnesses. First, I would like 
to welcome Donald Yamamoto. He is the Principal Deputy 
Assistant Secretary for African Affairs. He previously served 
as the U.S. Ambassador to the Federal Democratic Republic of 
Ethiopia from November 2006 to July 2009; Deputy Assistant 
Secretary of State and the Bureau of African Affairs from 2003 
to 2006; and U.S. Ambassador to the Republic of Djibouti from 
2000 to 2003. We thank you for being here, Mr. Ambassador.
    And then we will welcome Mr. Alexander Vershbow. He is 
currently the Assistant Secretary of Defense for International 
Security Affairs, ISA. Prior to his appointment he served as 
U.S. Ambassador to the North Atlantic Treaty Organization from 
1998 to 2001; U.S. Ambassador to the Russian Federation from 
2001 to 2005; and U.S. Ambassador to the Republic of Korea from 
2005 to 2008.
    I'd like to kindly remind our witnesses to keep your oral 
testimony to no more than 5 minutes and without objection, the 
witnesses' written statements will be inserted into the record. 
We will begin with you, Mr. Ambassador Yamamoto.

 STATEMENT OF THE HONORABLE DONALD YAMAMOTO, PRINCIPAL DEPUTY 
    ASSISTANT SECRETARY OF STATE FOR AFRICAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Yamamoto. Thank you so very much, Madam Chairwoman, 
Congressman Berman, and the honored members of this committee. 
Thank you so very much for having this hearing here today on a 
very important and very difficult topic and for the opportunity 
to brief this committee on the implementation of the on-going 
U.S. strategy to help our regional partners mitigate, eliminate 
the threat posed by the Lord's Resistance Army.
    We are deeply grateful for Congress' widespread bipartisan 
support for the LRA Disarmament in Northern Uganda Recovery Act 
that was signed last year. The legislation sent a very strong 
message, not only the support of Congress, but of the American 
people that we will help to protect civilians and bring an end 
to the LRA threat.
    We also want to express our deep appreciation to the 
hundreds of thousands of Americans who have sent and mobilized 
and expressed their concern for the communities under siege by 
the LRA and also the people who are here today and those who 
have the courage to stand up to the atrocities of the LRA.
    For two decades the LRA has terrorized innocent people 
across central Africa. The LRA has filled its ranks with 
abducting tens of thousands of children and forcing them to 
become child soldiers and sex slaves. From 2005 to 2006, the 
LRA moved from Uganda into the more remote border regions of 
Central Africa Republic, the Democratic Republic of the Congo, 
and what is now known as the Republic of Southern Sudan. In 
that region, the LRA has continued to commit atrocities. The 
United Nations estimates that over 385,000 people are currently 
displaced in this region as a result of the LRA activities and 
according to the U.N., there have been over 250 attacks 
attributed to the LRA this year alone.
    Over the recent years, regional militaries have worked 
together to pursue the LRA across a vast area of densely 
forested and difficult jungle terrain. They have had some 
success in reducing the LRA's numbers and keeping them from 
regrouping. However, as long as the LRA's leader, Joseph Kony, 
and other top commanders remain at large, the LRA will continue 
to pose its serious regional threat which undermines stability 
and development.
    In its report to Congress in November 2010, our strategy 
centers on four areas: The increased protection of civilians, 
apprehension and removal of Joseph Kony and his senior LRA 
commanders from the battlefield, the promotion of defections 
from the LRA and support of disarmament, demobilization, and 
reintegration of remaining LRA fighters, and finally, the 
provision of continued humanitarian relief to afflicted areas.
    Over the past year, the United States has continued to work 
with the United Nations, the African Union, and the regional 
governments to sustain and increase diplomatic and military 
pressure on the LRA. We have provided logistical support, 
training to the regional militaries pursuing the LRA. The 
United States has a strong interest in supporting our partners 
in the region to develop their capacity and to address the 
threats to peace and security posed by the LRA.
    The United States is now deploying U.S. military advisors 
to improve our support to the regional coalition, to increase 
the likelihood of successful military operations against the 
LRA. And I would defer to my colleague, Ambassador Vershbow in 
the Department of Defense to describe the details of those 
operations.
    We continue to consult with all the regional leaders and 
they have all said, granted their consent for the deployment of 
these advisors to the field. Remember, this is a short-term 
deployment with specific goals and objectives. We believe the 
U.S. advisors can provide critical capabilities to help 
regional forces succeed. We will regularly review and assess 
whether the advisors' effort is sufficient to enhance the 
regional effort to justify continued deployment.
    Our Ambassadors and Embassy staff will work closely with 
these advisors and make sure that they are sensitive to 
civilian protection consideration and local regional political 
dynamics. The State Department has also deployed an officer to 
the region to help coordinate all of our efforts in the field 
to counter the LRA with the work of the advisors.
    The administration is funding projects to help communities 
in the DRC that involve protection plans and join an early 
warning network. This includes setting up high frequency radios 
and cell phone towers. The same kind of early warning and basic 
telecommunication capacity does not yet exist across the border 
in the CAR. We recognize this gap and we hope to work with our 
partners over the coming year to help address this.
    We will continue to call on the LRA fighters to peacefully 
disarm and leave the organization ranks and to come home. And 
currently, there are about 12,000 who have done so.
    Over the coming months, we will continue to work with the 
regional governments to ensure that the rank-and-file fighters 
and abductees who escape the LRA have the necessary support to 
be reunited with their families and reintegrated into normal 
society.
    Madam Chairwoman, again, we appreciate and we are grateful 
to you and the members of both the House and the Senate for 
this bipartisan support in countering the LRA. Thank you.
    [The prepared statement of Mr. Yamamoto follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, sir.
    Ambassador Vershbow.

   STATEMENT OF THE HONORABLE ALEXANDER VERSHBOW, ASSISTANT 
 SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Vershbow. Thank you, Madam Chairman, Congressman 
Berman, and distinguished members of the committee. I want 
thank you all for inviting me today to discuss with you our 
efforts to assist the central African militaries encountering 
the Lord's Resistance Army.
    As has already been mentioned, there are four pillars to 
the administration's comprehension strategy to help our 
regional partners end the threat posted by the LRA. The second 
of these is the apprehension or removal of Joseph Kony and 
other top LRA commanders from the battlefield. That's the focus 
of DoD's efforts and will be the focus of my remarks this 
morning.
    The Ugandan military in cooperation with other regional 
militaries has been pursuing the LRA for several years. They've 
reduced the LRA's strength significantly. The LRA has moved out 
of northern Uganda completely. It's now operating in small 
groups across the Democratic Republic of the Congo and Central 
African Republic and South Sudan. While weakened, LRA leader 
Joseph Kony and other top commanders remain at large and they 
continue to direct the group's members to commit unspeakable 
atrocities.
    So consistent with the LRA Act and with the consent of the 
regional governments, we have deployed a small number of U.S. 
military personnel to the LRA-affected area to advise and 
assist the regional forces who are pursuing the LRA.
    The personnel deploying under this mission will travel out 
to field locations with the regional forces where they will 
work in an advisory and liaison role. These U.S. personnel, 
which are primarily U.S. Army Special Forces, will collaborate 
with the regional militaries engaged in the counter LRA effort 
to strengthen information sharing, operational cooperation and 
overall effectiveness.
    While the Department of Defense isn't in the lead with 
regard to the other pillars of the President's strategy, our 
advisors working alongside regional forces will be sensitive to 
the challenges of civilian protection and they'll work to 
ensure that protection considerations are incorporated into 
operational planning by our partners. They'll also seek to 
encourage defections and to strengthen the relationships in 
sharing of information between regional militaries and local 
populations, officials, and humanitarian actors.
    The approach we're undertaking reflects lessons learned 
from prior regional operations in pursuit of the LRA and it is 
designed to fill key capabilities gaps by enhancing regional 
forces' ability to fuse intelligence with operational planning. 
This approach will deliver maximum operational impact while 
exposing U.S. forces to minimum risk. Although roughly 100 
personnel will ultimately deploy for this mission, we expect 
that only a portion of the personnel will directly advise and 
assist forces in the field pursuing the LRA. Most of the U.S. 
personnel will carry out logistical and other functions to 
support the advisors.
    To be clear, U.S. forces deploying to this mission will not 
themselves engage LRA forces, but given the potential need to 
defend themselves, they will be equipped for combat. That's why 
consistent with the War Powers Resolution, the administration 
provided a formal report to Congress on their deployment.
    We appreciate the strong congressional interest in and 
support for this effort and we are committed to continuing to 
engage with the Congress to keep you informed about the 
progress of our effort as it moves forward. I would say that 
this is a great example of a joint initiative between the 
Executive and Legislative branches.
    Despite the strong bipartisan support, we know that there 
are still many questions. Many of them were posed by you, Madam 
Chairman, and by Mr. Berman at the outset. I'd like to address 
several of these questions in the remainder of my remarks.
    First regarding the purpose and timing of the deployment, 
we're providing advisors to the regional forces because Joseph 
Kony and the other senior leaders have proven unwilling to end 
the conflict peacefully and have continued to commit atrocities 
against innocent civilians. As you know, there was an 
opportunity for a negotiated peace agreement during the Juba 
talks in 2006, 2008, but they ended when Kony refused to sign 
and conducted new attacks and abductions. So regional 
governments have had to continue to pursue a military approach 
to end the LRA threat.
    As for our regional partners, we have provided significant 
assistance to the region's militaries in recent years, training 
the 391st Battalion of the Democratic Republic of the Congo's 
armed forces, assisting in professionalization of the Sudan 
People's Liberation Army, providing equipment to the armed 
forces of the Central African Republic and supporting the 
Ugandan People's Defense Force, so it can both counter the LRA 
and maintain its critical presence in Somalia. But we think 
despite the assistance to date, the Ugandan and other regional 
militaries would benefit from increased capacity to acquire and 
process actionable information on the locations of LRA leaders 
and to convert that information quickly into operational plans.
    The U.S. advisors deploying for the operation have the 
right skill sets to help address these capability shortfalls 
and the specific timing of the deployment was predicated in 
part upon the availability of the approach U.S. forces.
    [The prepared statement of Mr. Vershbow follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you. Maybe we'll get to the 
rest.
    Mr. Vershbow. Measuring success and what is the U.S. 
national interest.
    Chairman Ros-Lehtinen. We'll ask you about that. Thank you 
very much. Thank you to both of you for excellent testimony. We 
will begin our question and answer segment now.
    I wanted to ask you if the President's October 14, 2011 
report to the Congress transmitted consistent with the War 
Powers Resolution trigger the reporting and authorization 
requirements under Section 4 of the War Powers Resolution and 
if not, why?
    And secondly, what is the anticipated scope, duration and 
cost of this deployment and from where in the budget will those 
costs be absorbed? And how does this deployment square with the 
Department of Defense's effort to cut $350 billion over the 
next 10 years. And the Secretary's suggestion to the House 
Armed Services Committee that cuts may force DoD to pull back 
from Africa.
    Ambassador Vershbow?
    Mr. Vershbow. Madam Chairman, on the war powers issues, I 
think the reason why we made the notification was based on one 
simple fact, that the nature of the weapons that our forces are 
carrying for self defense are considered--make those forces 
considered to be equipped for combat, a phrase that is in the 
War Powers Resolution itself. So even though they're not going 
to be engaging in combat, but only carrying those weapons for 
self defense, the fact that they're equipped for combat 
triggered the requirement to file a report to Congress when 
they are going to be entering the territory of a foreign 
nation.
    I don't know if Don may have more on the legal aspects of 
that. I'm not a lawyer, but we can give you a more detailed 
response for the record, a full legal analysis.
    Chairman Ros-Lehtinen. We would appreciate it because we 
have some of our members and I have many questions about the 
legal analysis of when the War Powers Act is triggered and what 
in this operation would constitute that and your interpretation 
of it.
    Mr. Vershbow. Okay, we will do that.
    Chairman Ros-Lehtinen. Then on the cost, the scope, the 
duration, and from where these monies will be coming.
    Mr. Vershbow. Well first, I think that the clear goal for 
this advisory mission is to enhance the capacity of the 
regional forces so that they can better protect their 
civilians, track down Joseph Kony, and end the threat posed by 
the LRA. So I think we will be measuring success in a number of 
ways. We'll be looking to see whether the regional forces are 
able to successfully apprehend or remove top LRA commanders 
from the battlefield. That would be a very clear-cut measure of 
success, whether we can encourage larger numbers of defections 
from the LRA, whether we can see a substantial reduction in LRA 
attacks, and whether we can see a visible and measurable degree 
of professionalization of the forces engaged in this effort so 
that they have greater capacity, both to protect their citizens 
and conduct counter-LRA operations.
    But we have made very clear that this is not an open-ended 
commitment. As part of the decision to deploy our advisors, we 
have agreed that there would be a review after several months 
in order to assess whether our advisors are making sufficient 
progress for our objectives. Continuing this deployment is 
conditional on a number of factors including a sustained 
commitment and sustained cooperation by the regional 
governments in addressing the LRA threat. So it is not open 
ended. We don't have a specific time line that we've adopted. 
As I said, we will be reviewing the state of affairs.
    Chairman Ros-Lehtinen. Thank you, sir. I don't know that 
that answered the question, but we'll follow up with that. This 
has been going on sadly for so many years. What assurances can 
you offer that we won't be in this entrenched and expanded 
protracted conflict, as you point out?
    Mr. Vershbow. I think that we've already seen a lot of 
progress by the Ugandan and other regional militaries in 
conducting this mission and reducing the LRA's numbers, 
inhibiting their efforts to regroup. So we think we're building 
on a fairly strong foundation here. But we do, as I said in my 
remarks, feel that the regional forces have been limited by 
their capacity to acquire and process actionable information 
and so that giving them the greater skills in terms of fusing 
intelligence with operational plans could create a significant 
improvement in their ability to track the leaders and hopefully 
take Kony and other leaders off of the battlefield.
    Chairman Ros-Lehtinen. Thank you. So I look forward to 
getting some written responses about the cost, the scope, the 
duration, where the funds are coming and about triggering the 
War Powers Act. So if you could provide that in writing, I'd be 
very grateful.
    Mr. Vershbow. Okay.
    Chairman Ros-Lehtinen. Mr. Berman is recognized.
    Mr. Berman. Thank you very much, Madam Chairman. Just a few 
points. On the issue raised by the gentleman from Illinois, Mr. 
Manzullo, regarding briefing, the fact is that the 
administration pursuant to congressional law prepared a 
strategy which specifically included references to a military 
objective to remove Joseph Kony and his top commanders from the 
battlefield and U.S. assistance in achieving that. It was a 
public document done almost a year ago and that doesn't even go 
into any classified private briefings on more specific 
subjects. So this has been out there for almost a year.
    Secondly, I'd like to ask a few questions. First, the 
historically tense relationship between Uganda and Democratic 
Republic of the Congo, in light of that, do you see a Ugandan 
military as the force leading operations in DRC or will we have 
some of our Special Forces working with the DRC's 391st 
Battalion that was trained by AFRICOM?
    Mr. Yamamoto. Thank you very much, Congressman Berman. On 
the issue of Kony militarily, I think we need to focus that the 
approach is a multi-faceted comprehensive approach, not only 
militarily, but it has to be also addressing the problems with 
the crises from the victims who have been----
    Mr. Berman. I understand that, but----
    Mr. Yamamoto. The other issue is politically is to help 
politically, militarily, and economically, all these countries 
that are victims of Kony, to coordinate much better to go after 
Kony.
    Mr. Berman. Will our forces be working with the Democratic 
Republic of the Congo's 391st Battalion?
    Mr. Yamamoto. That's correct.
    Mr. Berman. Yes?
    Mr. Yamamoto. Yes. That's correct. And in that effort, we 
have, the State Department, has trained the 391st Battalion. 
They're right now on the border area. The issue of Ugandan 
troops in the area, it has to be a coordination between the DRC 
and the Ugandan troops. And of course, the issue of sovereignty 
is to coordinate the work between those two forces and how they 
will corner Kony's forces and how they would eliminate.
    The issue is--I'll give you one example. When we 
transferred the MONUC which was the DRC peacekeeping operations 
to MONUSCO, in there was one aspect of having a focus on the 
LRA and better coordination between these two forces. And 
that's something that we've been trying to do over the last 
decade.
    Mr. Berman. Do you envision that our advisors will be 
deployed at the brigade level, at the platoon level? Are they 
authorized to be deployed with Ugandan forces in the field? Or 
is this more of a headquarters deployment?
    Mr. Vershbow. Thank you. As Ambassador Yamamoto said first 
of all, anything we do will be based on full coordination and 
consent on the part of the respective governments. And while 
they've all come out in support of this initiative, we take 
nothing for granted. There will be continuing consultation to 
ensure that any steps we take to execute will be with their 
consent.
    So it's certainly within the concept of operations that we 
would deploy forces forward into the DRC, possibly at the 
platoon level and/or at the headquarters level. It's what would 
be most effective and what our partners----
    Mr. Berman. There's no artificial constraint on where you 
might deploy then?
    Mr. Vershbow. No. But there will be full consultation.
    Mr. Berman. I understand. But they could well be deployed 
at the platoon level in the field?
    Mr. Vershbow. That's right. It's still in an advisory and 
assistance role.
    Mr. Berman. I understand. What will the trainers be 
equipped with, our military trainers and advisors? When you say 
they're going to be combat equipped, that's what triggered the 
report.
    Mr. Vershbow. I'd have to give you a specific answer after 
the hearing for the record. I mean they will basically be 
carrying small arms for their own self protection and there may 
be other communications gear of course. But beyond that, I 
think I'd like to consult with my colleagues back in the Joint 
Staff to give you a more specific answer for the record.
    Mr. Berman. Okay, thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you. I would encourage the 
esteemed Ambassadors to be a little more precise about the 
answers to the questions that we're posing, but thank you for 
getting it for us later.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade is recognized for his questions.
    Mr. Royce. The question I was going to ask has to do with 
the reality on the ground that the Ugandans have been doing 
some pretty heavy lifting in Somalia. They've been fighting and 
dying there, and given that effort, I've heard concerns that 
they might be a little distracted on the follow through on 
this. Obviously you have a different read.
    Can you tell me your discussions with Uganda's Ambassador 
and how you read their willingness on this?
    Mr. Yamamoto. I did met with President Museveni on separate 
issues, but on this issue as well. We have had very close 
discussions with President Museveni as well as the other 
leaders. President Museveni is fighting a multi-frontal 
conflict, not only the LRA but also AMASOM in Somalia. It does 
not mean that he has lost or he is distracted because of these 
two conflicts. He is equally focused on both areas and both 
fronts. And on the LRA and the violence that has been 
perpetrated against Uganda that still sits very much in the 
psyche of the Ugandan people. When you still have 1.8 million 
who are displaced in the northern part, you still have 66,000 
kids who are----
    Mr. Royce. We understand that. But to the extent that we 
can keep him focused on this is going to be part of our task 
and then the other question is about Ugandans operating in 
Congolese territory. How are we planning to address this? Are 
you able to dialogue with the Congolese on that issue?
    Mr. Yamamoto. Yes. We spoke to President Kabila and we're 
trying to do processes in which he and President Museveni will 
arrange how these forces will coordinate their forces against 
the LRA.
    Mr. Royce. What steps are you taking to try to improve 
intelligence, because that's been one of the big failings in 
the past, one of the missing pieces on the location of Kony and 
his commanders?
    Mr. Yamamoto. The issue is trying to get the intelligence 
that each of these countries have and then to fuse it together 
and then to analyze it and that's why the U.S. military will be 
very helpful in that effort.
    Mr. Royce. Let me suggest though that that is somewhat 
limited, their intelligence is somewhat limited. You've got the 
ability to utilize leaflets, radios, in order to try to get 
defectors. To the extent that you can get defectors out of the 
LRA, your boots on the ground are going to be able to advise 
and direct the Congolese and Ugandans. Will U.S. personnel be 
deployed in that kind of an effort? I would suggest it would be 
wise to do so.
    Mr. Vershbow. The U.S. forces will be able to help advise 
and train the indigenous forces, improving their skills in 
terms of civil affairs, outreach to local communities, 
encouraging as you suggested, Congressman, that people provide 
tips to the forces, early warning.
    Mr. Royce. We need better intel than we had in 2008 on that 
mission. And to do that, we're going to have to drive the 
intelligence-gathering capacity by getting defectors to come in 
and give us the information needed for that mission.
    The Army Special Forces teams specializing in training 
foreign units are going to provide advice and assistance to 
these units. My expectation would be that you would have some 
at the platoon level, but I would imagine the bulk of them 
would be back in Uganda coordinating the logistics and the 
intelligence and the communications. Would that be correct?
    Mr. Vershbow. Yes, Congressman. The bulk of the overall 
roughly 100 people would be in Uganda, but small teams would 
deploy forward in partnership with the local forces to sort of 
help them improve their skills on the front line.
    Mr. Royce. And Special Operations Command Africa is headed 
by Rear Admiral Brian Losey. He's a Navy SEAL who previously 
commanded U.S. forces in the Horn, so he knows the region well. 
Is he assigned to oversee this operation? I was wondering how 
that would be engineered.
    Mr. Vershbow. I believe that is the case. It is under the 
overall direction of SOCAF, yes.
    Mr. Royce. Well, I yield back, Madam Chairman. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Royce. Mr. 
Payne, the ranking member of Africa, Global Health, and Human 
Rights Subcommittee is recognized.
    Mr. Payne. Thank you very much. As I mentioned, I was at an 
IDP camp last month and visited with people from villages that 
had been disrupted by the LRA and they were in Goma. So we see 
the destruction that is continuing on. I think a number of 
people wonder well why are we going after the LRA and why 
should we care about Uganda?
    I think we all know that Uganda has tremendous number of 
troops in Somalia. I had the chance to go to Mogadishu several 
years ago and saw them. As a matter of fact, I was escorted by 
the Ugandan troops throughout Mogadishu and they were doing an 
excellent job and I think that we have somewhat of a 
responsibility because of the fact that al-Qaeda is supporting 
Al-Shabaab. It was al-Qaeda that destroyed the USS Cole off of 
Yemen and so it's all connected. We wonder, well, why do we 
have any concern?
    It's very clear why we ought to be there and the fact that 
Kenya now is being attacked by al-Qaeda because of them going 
after Somalis. The Kenyan Embassy was bombed because Kenya 
voted with the United States most of the times in the U.N., all 
the time, and was one of the strongest supporters of the U.S. 
democracy around the country. And therefore they were the 
target where hundreds and hundreds of Kenyans died, and the 
same thing with Tanzania, because of our relationship. So I 
think this business is kind of intertwined and I think that 
when countries are going out to support our causes around the 
world, I think at least we have a reciprocal for having 100 
U.S. troops train folks there.
    I just want to ask quickly, Ambassador Yamamoto, what 
impact will the elections in DRC have? How is that going and 
will any of this disruption of LRA impact on the election 
there?
    Mr. Yamamoto. The elections in the DRC are very, very 
tight. It's not clear whether President Kabila could be 
reelected or the presence of the opposition from Tshisekedi to 
the others. The issue comes in as the commitment on the LRA 
operations by the DRC and Uganda still remains pivotal and 
we've discussed this closely with President Kabila and 
President Museveni.
    Mr. Payne. What about President Bashir in Sudan? As you 
know, Bashir supported the LRA and its formation. That's when 
al-Qaeda was in Sudan. Bashir supported al-Qaeda and LRA 
together. Is there any evidence that Bashir government is 
supporting LRA today?
    Mr. Yamamoto. We have not seen any of the intelligence or 
evidence since about the middle of 2002 and beyond. We have 
been, obviously, had very close discussions with the Sudanese 
military issue, but we've not seen evidence that there is 
support.
    Mr. Payne. And what about the LRA's activity in Southern 
Sudan? As this new country is trying to put together its 
government, are the LRA there in any large numbers? And what 
has the SPLM been able to do? And will they be a part of the 
training?
    Mr. Yamamoto. The LRA has been operating in Southern Sudan. 
Of course, the 285,000 who are displaced, part of them are in 
Southern Sudan as well as the CAR and DRC. But the forces of 
the LRA which is now depleted to probably around 150 to 200 
core fighters, 800 total accompanying people, are either in the 
CAR or DRC area.
    Mr. Payne. And what about a special advisor to the Great 
Lakes Region that's been suggested. I didn't use the word 
special envoy, but a special advisor. Is this in the making and 
what's the prospect of that?
    Mr. Yamamoto. We are taking it under advisement, very 
serious advisement based on your recommendations, Congressman, 
and from your committee.
    Mr. Payne. And the fact that we know that there's an 
expansion of mobile phones and FM radios, will you be using 
that technology to try to get words out to ask for deflection 
from LRA fighters?
    Mr. Yamamoto. That's correct, sir. The US AID has provided 
cell towers and the use of cell phones and right now they're 
using UHF radios, but the cell towers now are--the communities 
are calling in on a regular basis to say where the LRA is 
located, so better communications and better coordination.
    Mr. Payne. Thank you very much. Thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Payne. Mr. Duncan of 
South Carolina is recognized.
    Mr. Duncan. Thank you, Madam Chairman. Back in the spring 
in March or April, the Deputy National Security Advisor Ben 
Rhodes was talking about the Libya involvement and he said 
this, ``I think what we're doing is enforcing a resolution that 
has a very clear set of goals which is protecting the Libyan 
people, averting a humanitarian crisis in setting up a no-fly 
zone. Obviously, that involves kinetic military action, 
particularly on the front end. But again, the nature of our 
commitment is that we are not getting into an open-ended war, a 
land invasion in Libya.''
    And according to STRATFOR Global Intelligence, since 2008, 
the U.S. has helped finance regional military efforts to 
capture LRA commanders where the U.S. has spent $497 million 
strengthening the Ugandan army. Presently, the LRA is estimated 
to have somewhere between 200 and 400 fighters which lacks the 
numbers, I think, or the weapons from what I understand for a 
sophisticated insurgency. So as we delve into this, I have to 
ask myself and ask you guys today before deciding to deploy 
approximately 100 U.S. military personnel, did the 
administration receive a request from Uganda, the DRC, CAR or 
the African Union to provide this assistance? I'll ask 
Ambassador Vershbow.
    Mr. Vershbow. Well, this has been a continuing effort, as 
you've just said, Congressman. We've been working in 
partnership with the regional states and they have, I think, 
welcomed the assistance to date and I think they've been 
indicating that additional support would be needed.
    We looked at the experience from 2008 when we did provide 
advisors to Uganda at the request.
    Mr. Duncan. Did they specifically ask for boots on the 
ground, American personnel?
    Mr. Vershbow. I think they understood, as we have judged, 
that they lack this critical capability of fusing intelligence 
with the operational plans that have been the main handicap to 
finishing the job. They have made substantial progress in 
degrading the LRA, but they're still out there. They're still 
committing atrocities. So I think they indicated that they 
would welcome this kind of hands-on training.
    Mr. Duncan. So what we're doing is training, mainly. No 
predator drones, no--could you define kinetic military action? 
I'm struggling with that term. What does that mean?
    Mr. Vershbow. I understand the term kinetic to mean the use 
of actual lethal force.
    Mr. Duncan. Did we use kinetic military action in Libya 
which was lethal force?
    Mr. Vershbow. At the front end of the operation, we used 
considerable kinetic force to take out the air defenses of 
Libya as part of the first week or 2 weeks of the operation. 
Then most of the kinetic activity was carried out by our 
partners and NATO allies who conducted the lion's share of the 
air strikes in the civil protection mission.
    We did continue, when necessary, to support the suppression 
of enemy air defenses. And we did, on occasion, use armed 
predators for specific targets that no other ally had the 
capability to hit.
    Mr. Duncan. Did we in this action and in Uganda, did we 
garner tangible financial or military support from other 
countries such as the U.K. and France, like we did in Libya or 
are we there alone?
    Mr. Vershbow. There has been assistance by our partners. I 
would defer to my colleague who may know more.
    Mr. Duncan. Is this a NATO action, I guess----
    Mr. Vershbow. This is a U.S. initiative, but there's been 
other assistance over the years.
    Mr. Yamamoto. Yes, we have very careful coordinations, 
French in CAR, the U.K. in Uganda, but yes, that's true in the 
sense that we're providing the bulk of the assistance as far as 
the military training, etcetera. The other donor communities 
are doing the other parts on humanitarian assistance and 
rehabilitation, reconciliation.
    Mr. Duncan. How long do we anticipate the U.S. forces being 
there? Do we have some sort of time table at all?
    Mr. Vershbow. We don't have a specific time table. We are 
talking, I think, months, but I wouldn't put a number on it at 
this point. But we will review the operation in a few months to 
see whether it's achieving the desired effect through this 
enhanced qualitative change in the nature of the training that 
we're providing and to see whether it's having effects on the 
ground in terms of further eroding the LRA.
    Mr. Duncan. What do you define as success?
    Mr. Vershbow. I think we define success first and foremost 
on the basis of whether Kony and other commanders are actually 
captured, whether we see further fracturing of the LRA and more 
defections, whether we see tangible improvement in our 
partners' capacities out in the field to succeed and that 
includes not just the kinetic parts of it, but in terms of 
whether they are also more capable of engaging with the local 
population to develop the climate in which people report on and 
turn in LRA sympathizers.
    Mr. Duncan. When we put Americans in harm's way like this, 
I think we need to be very clear what we do. We need to be very 
clear when the President comes to Congress with the War Powers 
Resolution and I'm out of time, so I yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Carnahan is 
recognized.
    Mr. Carnahan. Thank you, Madam Chair. Thank you to our 
witnesses for being here today. I wanted to start with really a 
general question about how the U.S. is working with the 
international and regional partners to strengthen coordination. 
In particular, what are the strategies and approaches, both 
diplomatically and otherwise that the U.S. Government is 
utilizing to ensure a more effective collaboration among key 
actors to counter LRA efforts. And let me start with Ambassador 
Yamamoto.
    Mr. Yamamoto. In that effort, we have not only been talking 
directly to the Presidents Kabila, Bozize, Salva Kiir and 
Museveni, at that level, but also within their command 
structures, militarily, as well as diplomatically to see how we 
can coordinate better on our efforts, not just militarily, but 
comprehensively against the LRA. That's the first of it.
    The second thing is that we're talking to the African 
Union, to regional groups, as well as to the donor community, 
to see how we can all bring to bear some of our own specific 
assets that we have. For instance, we will do the military 
training program, U.K., France, others are doing humanitarian 
programs. The African Union is doing a lot on coordination from 
other countries.
    Mr. Carnahan. And Ambassador Vershbow?
    Mr. Vershbow. Well, I would also add that what we're doing 
in this specific case is a subset of the broader efforts that 
we are making throughout Africa to promote professionalization 
of militaries, to promote capacity of the African countries to 
solve their own problems. And part of that is to invite 
countries to participate in both bilateral and multi-national 
training and exercises which would hopefully inculcate a 
greater pattern of cooperation among them. I think this 
initiative in addition to hopefully achieving the specific goal 
of taking Joseph Kony off the battlefield will also encourage 
greater military cooperation among the four key states involved 
that would be a factor for longer term stability in the region 
so that we don't have to intervene in the future.
    Mr. Carnahan. Let me next turn, I guess a more particular 
question for these operations. Is this, in your opinion, a 
unique model that is being used in central Africa? Or is this 
comparable to some other operations like in southern 
Philippines? Chairman Rohrabacher led a delegation there a few 
months ago where we got to see a unique operation there where a 
limited number of U.S. military were advising, not engaging in 
combat, but trying to be very focused on the safe havens and 
training campus there.
    Again, is this a unique model? Is this drawing on some 
other experiences in other places that have worked? And let me 
start with Ambassador Vershbow.
    Mr. Vershbow. Congressman, this is not a unique model in 
the sense that training and equipping partner forces is 
something that we've done for many years in many parts of the 
world. My experience, if you look at my bio, is more in Europe. 
We've had training and equip programs to train the Bosnian 
armed forces after the Dayton Accords. We helped train the 
Georgia armed forces to try to deal with terrorist forces in 
the border regions with the Russian Federation. So each mission 
is tailored to the specific circumstances and the requirements 
of the partner involved. But this sort of advice and assist so 
that they can then deal with the problem more effectively and 
more professionally is a well-established model that has proven 
its value.
    Mr. Carnahan. And Ambassador Yamamoto?
    Mr. Yamamoto. And I think it's in the context of if you 
look at Africa as far as really good cooperation and 
coordination between the Department of Defense and Department 
of State and looking at how we can do training on not on a 
specific area, but also continent wide. For instance, as you 
know, the State Department has trained about 160,000 troops for 
peacekeeping operations in 24 countries. We use that also with 
the Department of Defense for guidance and advice and 
coordination. In this context as well, you have the State 
Department helping to do diplomatic coordination or doing also 
assistance as far as money-wise to provide logistical support 
and of course, DoD is providing the actual individuals to do 
some training. So those are issues that were kind of a model 
for this area, but also we're looking at other areas and parts 
of Africa.
    Mr. Carnahan. Thank you, Madam Chair. I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Carnahan. Ms. Schmidt 
of Ohio is recognized.
    Ms. Schmidt. Thank you very much. Ambassador Vershbow, I 
read your report and I'm a little confused by it. In one point, 
on page four, you refer to this as really nothing more than 
what we already do with AFRICOM that we have in place in 
Africa; and I've been over there and I've studied it, and 
that's basically, unless I'm wrong, an educational tool that we 
use to help African nations develop a more professional 
military. We also do some building of schools and hospitals on 
the ground. But you add in your report that the reason why we 
had to go, why the President had to go to Congress, is because 
there might be a potential need to defend themselves, the 
troops that are on the ground, and so, therefore, the War 
Powers Resolution was put in place.
    What confuses me is this: Is this what we do under AFRICOM 
or is this different, because under AFRICOM there's always the 
danger that they might have to defend themselves so there 
wouldn't have to be any need to come to Congress and say the 
War Powers Act may be invoked? Or, are we really, and not just 
anticipating, but expecting some conflict to arise, so that 
this is a heads up? That's question number one.
    Question number two, in the report you said that you felt 
we would be asking about the purpose and the timing of the 
deployment and how we are going to judge success of the 
mission, and yet I didn't hear any real clear answers as to 
what success is or the timing of this deployment.
    And my final is this: I think we should, somebody should 
know what the cost is per day for these troops to be on the 
ground, just real costs right now and anticipated costs if they 
have to go into combat. So those are my questions.
    Mr. Vershbow. Thank you, Congressman. Good questions. I'm 
sorry if my statement confused you a bit. I think that when we 
say that this is not fundamentally different from previous 
AFRICOM missions it's because the overall concept of training 
and advising and assisting partner forces is kind of the 
watchword of U.S. AFRICOM. We do it in other parts of the 
world, too, but I think we have a particular----
    Ms. Schmidt. Right, we've created AFRICOM because we wanted 
specific attention to the region.
    Mr. Vershbow. More attention and help develop a greater 
expertise of how to deal with the region than we have by 
borrowing forces from other combatant commanders.
    Ms. Schmidt. Exactly.
    Mr. Vershbow. This is a little different though in some of 
the specifics in the sense that we don't always put our 
advisors and trainers in the field with the forces that are 
going to be carrying out the actual military operations and 
that's what in this specific case led to the judgment by our 
military planners and commanders and then by the President when 
he approved this that despite their mission not including any 
engagement in combat, they could be in a hostile environment in 
some circumstances and that they should be carrying the kinds 
of weapons needed to defend themselves. And that's what, in 
turn, triggered the war powers notification. But we don't 
anticipate that they'll get into the midst of conflict, but I 
don't want to exclude that possibility. But they will have the 
capacity to defend themselves if the need should arise.
    In terms of defining success, I think beyond the very 
specific metric of capturing or killing Joseph Kony and other 
commanders, it's going to be a judgment call as to whether our 
partners are making substantial gains, they're making effective 
use of the additional training, that they've learned this 
fusion of intelligence and operational planning that we think 
is the missing piece that has prevented them from going from 
reducing the LRA to actually eliminating the threat.
    But we will consult with the Congress and inform you of our 
assessment of the operation as it unfolds because as I said, 
this is a unique example of executive legislative 
collaboration, so we want to work with you all the way along.
    In terms of the cost, I apologize for not having the bottom 
line. I can actually say more about some of the State 
Department expenses than the DoD expenses. U.S. AFRICOM is 
drawing on existing operations and maintenance funding to 
support the operation, but we're still working on an overall 
cost assessment to give you that day-by-day estimate and we 
will provide it to the committee once that estimate has been 
refined.
    Ms. Schmidt. I'm almost out of time. Do you have any idea 
when we're going to get that cost? I mean is it tomorrow, the 
next day? It should be relatively easy.
    Mr. Vershbow. I don't want to give you a specific 
commitment. We'll try to get it to you very soon.
    Ms. Schmidt. Thank you.
    Chairman Ros-Lehtinen. Thank you, Ms. Schmidt. Mr. Connolly 
is recognized.
    Mr. Connolly. Thank you, Madam Chairman. I'm sure Mr. 
Assistant Secretary, you can understand the sensitivity up here 
about the cost of military operations. The previous 
administration low balled the cost of Iraq and Afghanistan and 
here we are well in excess of $1 trillion later, a significant 
contributor to the United States debt which so many of my 
colleagues express concern about. And yet, we accepted false 
assurances or very loose assurances about the cost of those 
engagements.
    I think it's a reasonable question to ask, what is this 
going to cost? or what is your estimate of what it's going to 
cost? and to get that information obviously in a timely 
fashion. Let me ask, what is the rationale for putting troops, 
U.S. military advisors into Uganda? What is the goal?
    Mr. Vershbow. Well, Congressman, first of all, I'll 
reiterate, we'll get you the cost figures as soon as we can.
    Mr. Connolly. Thank you.
    Mr. Vershbow. But this will certainly be much more modest 
than the costs of actual combat operations. As for the reasons 
why we're there, I think there's a continued threat to 
civilians and threat to stability in the region. We think that 
this very discrete, specific increase in the scale and form of 
our military assistance can make a difference in ending the 
threat of the LRA.
    Mr. Connolly. Okay, Mr. Assistant Secretary, so is the 
goal, given what you just said, to in fact, defeat the LRA and 
to disband it? Or is the goal to lessen the threat to civilian 
control in the region?
    Mr. Vershbow. We would certainly hope that this additional 
support will lead to the breakthrough of capture of Joseph Kony 
and the other commanders and the literal destruction of the 
LRA, but we will not necessarily wait for that to happen. This 
is going to be an operation that runs in the months, not an 
open-ended operation. And we will evaluate whether the 
assistance has achieved its purpose in terms of raising the 
capacity of our partners and we may disengage even as they 
continue the fight on their own.
    Mr. Connolly. Okay, but is the ultimate goal the deposing 
of Mr. Kony and the dismemberment of the LRA?
    Mr. Vershbow. That is the stated goal. That's one of the 
four parts of the strategy, removing the battlefield----
    Mr. Connolly. I think it's very important that we have a 
clear mission. Okay.
    Mr. Vershbow. There's also a broader objective that we're 
serving which is to support partners in Africa so that they can 
address the threats to their citizens, to achieve stability, 
and become more productive contributors to security in the 
region and more broadly. We've seen some of them stepping up as 
has been mentioned in Somalia at great risk and loss of life. 
This is a problem that is debilitating for several countries, 
so to the extent that we can help them finally put an end to 
this threat, I think we'll help their security and make them 
better partners for us going forward.
    Mr. Connolly. Was there a perception in making this 
decision that our partners were on their own not capable of 
meeting that goal?
    Mr. Vershbow. I think--yes, Congressman. The judgment was 
that while they've made a lot of progress, we've seen the LRA 
size reduced substantially, going that final distance to 
destruction of the LRA was something that they were not quite 
capable of and that this assistance could make the critical 
difference. So we thought it was a worthwhile investment to 
make.
    Mr. Connolly. Moving to 30,000 feet, a devil's advocate 
question for you, as well, Mr. Ambassador, what is the 
strategic interest of the United States in this in doing this? 
There are lots of unpleasant people in the world. There are 
lots of insurgencies and terrorist movements in the world. The 
United States obviously cannot try to dethrone every one of 
them. What is our strategic interest here?
    Mr. Vershbow. Well, I would say that we've seen in today's 
world that everything is increasingly connected to the extent 
that eastern and northeastern Africa is unstable, under 
developed, an ungoverned space in which these kinds of 
rapacious extremists and terrorists can run amok. It ultimately 
can affect our interests. It creates the conditions in which 
other radical threats could emerge. We've seen the worst case 
in Somalia with both the breakdown of governance and the rise 
of the Al-Shabaab terrorist movement. While that is not 
directly linked to the LRA threat, it's all part of a challenge 
to stability in the region that ultimately jeopardizes our 
interest.
    Mr. Connolly. Thank you.
    Chairman Ros-Lehtinen. Thank you. Thank you, Mr. Connolly. 
Mr. Turner is recognized for 5 minutes.
    Mr. Turner. Thank you, Madam Chair. A question for 
Ambassador Vershbow. If the stated goal is to decapitate the 
leadership of the LRA, as I understood from your question 
before, we are not using aerial drones or observation and would 
we be authorized to use predators to take out the leadership if 
they were seen and observed?
    Mr. Vershbow. Congressman, at the present time, the use of 
drones is not envisaged in this operation. I think that the 
kind of intelligence that is most important to the success of 
this operation is the human intelligence gathered on the 
ground. That depends on closer ties between the military forces 
of the countries involved and the local population. And so our 
training and assistance has, as part of its broader objectives, 
helping them to acquire and make better use of that kind of 
ground intelligence that could make the difference.
    I think the questions of authorities for drone strikes 
against extremists in terms--there's a more delicate matter 
which is probably not suitable for commenting on in this open 
session, but again, the focus is on advising and assisting the 
forces on the ground so that they can gather and use 
intelligence more effectively to do the job.
    Mr. Turner. Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Turner. Mr. 
Higgins also of New York is recognized.
    Mr. Higgins. Thank you, Madam Chair. The Lord's Resistance 
Army emerged from northern Uganda in the 1990s. Since that time 
has murdered, killed, mutilated some tens of thousands of 
people. Joseph Kony was indicted for war crimes and crimes 
against humanity in the tribunal at The Hague. Kony is also 
designated as a specially-designated global terrorist. Some 300 
fighters originating out of Uganda now more prevalent in 
central Africa.
    I mean the United States deploys 100 military advisors who 
happen to be Special Forces. I think we should just call this 
what it is. It's a kill and capture mission. I would ask you to 
comment on that.
    Mr. Vershbow. Well, Congressman, I think we certainly are 
trying to enhance the capacity of our partners to capture or 
kill Joseph Kony and other commanders, but they will be doing 
the actual military mission on the ground. We will be advising, 
assisting them so that they can be more effective in doing it.
    So yes, I don't disagree with you on terms of one of the 
end results of this, if it works, but I think it makes sense 
from the United States' point of view to enable partners to act 
when they have the capacity to do so. As we've said, they have 
some capacity and they've done a lot and we've helped them get 
to this stage, but to go the final distance requires this 
additional support and we think it's a good investment in our 
long-term security and theirs.
    Mr. Higgins. Ambassador?
    Mr. Yamamoto. Yes, you're absolutely correct. The main 
objective is to support these countries to do the jobs 
themselves and to build the capacity and that's what we've been 
trying to do for the last decade.
    Mr. Higgins. I just think there's a tendency sometimes to 
dance around this stuff. And obviously Joseph Kony is a bad 
guy, doing bad things to otherwise good people in a region that 
is strategically important to us and I just think sometimes we 
need to call it what it is and this clearly, to me, not unlike 
our involvement with military advisors in other regions, 
troubled regions, of that region of central Africa, north 
Africa, and the Middle East. We send advisors there, obviously, 
very well trained. Have a particular expertise at doing certain 
things, in particular, taking bad people out and I think that 
this is indicative of that.
    It's a religious group, the Lord's Resistance Army, 
presumably Islamists?
    Mr. Yamamoto. No, it's not religious.
    Mr. Higgins. Published reports indicate that it is.
    Mr. Yamamoto. It uses images or statements as an ideology 
to justify their terror. I know that Kony said in the early 
days that he was related to Christ.
    Mr. Higgins. Any relationship to al-Qaeda?
    Mr. Yamamoto. We have not----
    Mr. Higgins. Any relationship to the Janjaweed?
    Mr. Yamamoto. No.
    Mr. Higgins. I yield back.
    Chairman Ros-Lehtinen. Thank you. Using the Lord's name in 
vain, not a good thing. I'm pleased to yield to Mr. 
Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair. I want to return 
to a question that was posed earlier. It's important in light 
of that. We need to make sure that our efforts in the region 
are not discordant, that they're not piecemeal. We have 
requested through a number of hearings the reappointment of a 
special envoy to the Great Lakes Region.
    Ambassador Yamamoto, you said we would continue to take 
that under advisement. We've gone this direction before, but 
can you explain, if you are resistant, as to why this has not 
happened or are there other concerns that we may not be aware 
of?
    Mr. Yamamoto. As you know, we had the Special Envoy Howard 
Wolpe who did a fantastic job. I think after that the issue is 
to assess where do we go from here? And I think we heard loud 
and clear from the Congress that a special envoy is needed. 
We're taking that----
    Mr. Fortenberry. How long has the position been vacant 
though? It's been some time.
    Mr. Yamamoto. It's been over a year now, a year and a half.
    Mr. Fortenberry. Well, again, given the heightened 
intensity of these measures, I think this is the appropriate 
time to revisit this question with a certain sense of urgency.
    Let's return, as well, to gain a broader understanding of 
who are the other international partners involved here, 
specifically in military operations. We talked about other 
international donors for relief work and then specifically what 
is the Ugandan army's effort going to be? It has been in the 
past to specifically demobilize Joseph Kony and the LRA.
    Mr. Yamamoto. You're absolutely correct. The specific 
amount of assistance of militarily supporting the UPDF in this 
effort has been the United States. I mean $40 million from the 
United States in the last 3 years, specifically aimed at 
providing logistical support as the LRA moved from Uganda into 
the CAR. The other countries are providing other types of 
support other than the military.
    Mr. Fortenberry. You're talking about the affected 
countries, not other international donors?
    Mr. Yamamoto. No, the other international donors, that's 
right. As far as the other countries are concerned, the 
Ugandans themselves are also providing support and assistance 
through providing their own equipment and military tactics and 
of course, the troops itself. The CAR, that is a coordination 
effort with the FACA troops by the Ugandans and the CAR because 
Ugandan troops are in the CAR in a sovereign country and that 
is the coordination between President Bozize and President 
Museveni to work out those logistical issues.
    Mr. Fortenberry. Those two countries, then in a coordinated 
effort, are the primary drivers currently of the military 
operation, correct?
    Mr. Yamamoto. But also the DRC is getting involved because 
the LRA has gone in and out between the CAR and DRC.
    Mr. Fortenberry. Are there other international countries 
such as France who are engaged militarily?
    Mr. Yamamoto. Only insofar as training the CAR troops.
    Mr. Fortenberry. So France is involved in the CAR?
    Mr. Yamamoto. Yes.
    Mr. Fortenberry. All right, what other international actors 
are involved beyond the military operation to coordinate 
disarmament efforts and rehabilitation efforts, reintegration 
efforts?
    Mr. Yamamoto. The United Nations and the African Union. The 
United Nations from the DRC side which was the establishment of 
MONUSCO or the reestablishment of MONUSCO basically to 
coordinate those efforts between the FARDC troops in DRC and 
the UPDF and Uganda----
    Mr. Fortenberry. Okay, I think we probably ought to stop 
using the acronyms because it gets too confusing too quickly.
    Mr. Yamamoto. The Congolese troops and the Ugandan troops 
to coordinate together.
    Mr. Fortenberry. Okay, but then the African Union's 
involvement?
    Mr. Yamamoto. The African Union is not as extensive as the 
U.N. It's basically the leadership under Chairman Ping and his 
group to talk to the leaders.
    Mr. Fortenberry. I'm sorry, explain that further?
    Mr. Yamamoto. In other words, to discuss with the 
Presidents and the leadership when these countries on the LRA 
problem and what more they need to get the job done.
    Mr. Fortenberry. So African Union effectively is not 
involved here other than in conversation?
    Mr. Yamamoto. Discussions.
    Mr. Fortenberry. Is that a potential development?
    Mr. Yamamoto. That's right. It is.
    Mr. Fortenberry. The reason for pressing the issue is 
clearly that the United States cannot solve all problems for 
all people and you have been authorized by Congress to engage 
in this activity. And again, we're all hopeful for a positive 
and quick outcome. But to continue to press the international 
community for switch engagement as is appropriate as well needs 
to be a part of this broader, comprehensive effort.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you. Mr. Rohrabacher is 
recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. First 
of all, let me just note that I don't know if I'm disappointed 
or what, but not even having a cost estimate for us coming 
before Congress, letting us know that there's a military 
operation, have the troops already been, are these 100 troops 
already been sent or are they on the way?
    Mr. Vershbow. Only some of the initial personnel have 
arrived. The full 100 have not yet deployed.
    Mr. Rohrabacher. So the mission is actually under way. You 
actually have some people who have already been sent, but you 
don't have a cost estimate of what it would cost? Even an 
estimate?
    Mr. Vershbow. I apologize, Congressman. I'm embarrassed not 
to have a more specific answer for you. The forces that are 
already there are being funded by regular operations and 
maintenance funds, but when we get further along, there will be 
more costs incurred and we will definitely have that estimate 
for you before we reach that state.
    Mr. Rohrabacher. I take it the 100 troops are also going to 
bring with them their equipment.
    Mr. Vershbow. Correct.
    Mr. Rohrabacher. Now I don't think it's our place to ask 
about specific equipment going into a combat area, but that's 
considerably costly as well.
    I noticed in your testimony you said that this LRA has been 
reduced to approximately 200 core fighters? So it might be 
significant for us to know if the cost of this mission is going 
to be $500 million or whether it's going to be $100 million or 
$20 million in terms of the cost of getting 200 fighters who 
are people who are criminals, we could basically call them, 200 
organized criminals in central Africa.
    I take it also that if they're reduced to 200 men and what 
we've got are the armies of these various countries you're 
talking about, we're talking about 200 men who are now fighting 
thousands of other armed troops, but we feel compelled to send 
200 of our own troops there. I'm not sure whether or not that--
I'll look closely at this and I think the American people will 
as well, whether or not this was a right decision.
    Would you say that tribal loyalties have anything to do 
with the ongoing strength of the LRA?
    Mr. Vershbow. I'll defer to my colleague who knows more 
about the context.
    Mr. Yamamoto. The LRA obviously was originally a northern 
Uganda Acholi base, but right now it's kind of morphed because 
it has gone into--it does have groups from Southern Sudan, 
Congo, and the DCAR.
    Mr. Rohrabacher. You would think tribal allegiances have 
something to do with the survivability of this and the 
effectiveness of the LRA?
    Mr. Yamamoto. It's the open areas that are terribly hard to 
track people. That's his cover. That's how he's been able to 
escape for two decades without capture.
    Mr. Rohrabacher. I take it that was a yes?
    Mr. Yamamoto. Yes.
    Mr. Rohrabacher. So we're sending our troops in take on 
head on this whole tribal challenge in Africa. Let me just note 
that that doesn't sound very good to me in terms of possible 
success, but there again, this force may be evil enough to 
justify sending our troops in.
    Let me ask you, you were involved in Ethiopia. You were our 
Ambassador to Ethiopia.
    Mr. Yamamoto. Yes.
    Mr. Rohrabacher. During that time period there was a border 
dispute between Eritrea and Ethiopia?
    Mr. Yamamoto. Yes.
    Mr. Rohrabacher. That went up to arbitration.
    Mr. Yamamoto. Yes.
    Mr. Rohrabacher. The arbitration ended up deciding what on 
whose favor?
    Mr. Yamamoto. The EBC made a determination on the border 
between Eritrea and Ethiopia.
    Mr. Rohrabacher. Right, and they decided basically that 
Eritrea had the rightful position, is that correct?
    Mr. Yamamoto. Only in the Bdame area. But the other area 
went to Ethiopia.
    Mr. Rohrabacher. Okay, so did our Government at that time 
while you were Ambassador recommend that Ethiopia respect the 
arbiters or did we--we did?
    Mr. Yamamoto. We did.
    Mr. Rohrabacher. When Ethiopia rejected the arbitration 
over our advice, what did we do and what was our Government's 
position on Ethiopia considering that we have since the time, 
that they decided not to settle their dispute through 
arbitration, but instead decided to thumb their nose at 
arbiters, have we provided Ethiopia with weapons and training 
and guns since then?
    Mr. Yamamoto. We have not provided weapons. We have 
provided training because of their forces in Darfur and now in 
Abyei.
    Mr. Rohrabacher. Right. So--but we haven't sold them any 
weapons or anything?
    Mr. Yamamoto. No, no weapons.
    Mr. Rohrabacher. All right.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you.
    Chairman Ros-Lehtinen. Thank you very much. And Mr. Marino 
will now be recognized and I thank him because he will be 
asking questions that have been submitted through our 
committee's Web site which connects our constituents more 
directly to our work in Congress and we're also asking the 
public to enter their questions when we have the honor of 
having Secretary Clinton appear before our committee on 
Thursday.
    So thank you, Mr. Marino, for using those questions.
    Mr. Marino. Thank you, Madam Chair. And in addition to the 
questions that were submitted to the committee, I have a Web 
site for my District and I asked my constituents to send 
questions to me prior to my hearings, so the questions I'm 
going to ask are going to be repetitive, but if you could 
answer them in a different light. Please bear in mind I have 
now less than 4\1/2\ minutes. Please be succinct and whoever 
feels that they can answer the question to satisfy my 
constituents, please jump in.
    First question comes from Sharon, ``Who will be paying for 
this troop deployment and what is the anticipated cost and how 
many troops will be involved for how long?''
    Mr. Vershbow. The United States will be paying for this 
operation and as I've said sheepishly to Congressman 
Rohrabacher, we don't have precise costs, but I can assure him 
that it's like to be in the tens of millions of dollars, not 
the hundreds or the $500 million. We think it's an investment 
worth making in terms of just advising and assisting local 
forces we can eliminate a very evil force from the earth.
    Mr. Marino. From Titus: ``How will U.S. forces in central 
Africa help address widespread development needs of the region? 
And if the LRA is removed without making improvements to the 
economic and social stability of the region, then another 
military force could easily replace it.''
    Mr. Yamamoto. It's not much the U.S. military as it is the 
efforts of US AID, the U.S. diplomatic efforts in coordination 
with the international donor community, international 
organizations and the regional states to look at how we can 
establish economically develop these countries.
    Mr. Marino. From Michael: ``What are the Europeans and 
other allies doing to help stop the LRA?''
    Mr. Yamamoto. Raising consciousness, supporting, assisting 
what's rehabilitation, reconciliation, rehabilitation of 
victims, and also supporting the governments in their efforts 
to go after the LRA.
    Mr. Marino. How about any money?
    Mr. Yamamoto. The assistance, right, and again, our money 
so far for the region has been around $50 million in total for 
the last 3 years, just on the LRA operations, but then overall 
on the LRA operations, the Europeans, the U.N. and other 
organizations are also contributing money. I don't have the 
specific amount.
    Mr. Marino. This is from Greg: ``Is this a peacekeeping/
humanitarian mission or more of an advisory role?''
    Mr. Vershbow. It's clearly an advisory mission, helping to 
prepare partner forces to do the job themselves more 
effectively, but it certainly has a humanitarian motivation, 
namely, that there's been long suffering for more than two 
decades by the population at the hands of the Lord's Resistance 
Army.
    Mr. Marino. This is from Danielle. First of all, and to 
show that I'm trying to cover both sides of the story here, 
``Thank you to the Members of Congress who have decided that 
the destruction of human life in central Africa at the hands of 
the LRA matters and have taken important action steps toward 
bringing peace to those affected? Could you gentlemen be more 
specific about the ways in which the troops deployed have been 
trained to advise, specifically in the hunt for Kony as opposed 
to other large-scale tactical planning?''
    Mr. Vershbow. I think that it should be understood that our 
forces are going there to help train and improve the 
capabilities of the local militaries who will then carry out 
the actual operations in the field. The key thing we're hoping 
to help them with is fusing the intelligence information with 
the operational plan so that they can more quickly respond to 
reports that the LRA is active and engage and we hope eliminate 
the remaining leadership of the LRA. We're not taking on a 
combat role ourselves.
    Mr. Marino. Most of these questions were from my 
constituents in Pennsylvania 10, north central and northeast 
Pennsylvania, but here's my question. Do you have an exit 
strategy?
    Mr. Vershbow. We do because we said from the outside that 
this is not an open-ended mission in terms of its goals or its 
duration. We certainly hope that it achieves the over-arching 
goal which is eliminating Joseph Kony and the other commanders 
from the battlefield, but we will not go on indefinitely even 
if that maximum goal isn't achieved. We will judge whether 
we've been effective in improving our partners' capacity to 
deal with the threat, to engage the LRA, to encourage more 
defections, to substantially reduce the threat and then we will 
pull back and we hope that they will be able to continue with 
this experience and training to finish the job.
    Mr. Marino. And quickly, this should be a yes or no from 
both of you, are we following the money or just handing a check 
over? Are we following the money or are we just handing a check 
over?
    Mr. Yamamoto. We're accounting.
    Mr. Vershbow. We're following the money as we will be there 
on the ground ensuring that what we use the taxpayers' money 
for is achieving positive results.
    Mr. Marino. Thank you, gentlemen. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Marino, I don't know 
how that could have been answered with a yes or no, given two 
choices, but well done. And you have very wise constituents. 
They ask excellent questions and I encourage all of my members 
to try to bring in our constituents to the committee process. 
Thank you, Mr. Marino.
    Mr. Sherman from California is recognized.
    Mr. Sherman. Mr. Yamamoto, in this enterprise, are we 
introducing American armed forces into hostilities or into 
situations where imminent involvement in hostilities is clearly 
indicated?
    I'm citing the War Powers Act.
    Mr. Yamamoto. Right, I mean the reason why they're there is 
they're mainly for advice and support and assistance. However, 
if obviously to defend themselves they need to be fully 
equipped.
    Mr. Sherman. Well, the U.S. Marines in the London Embassy 
would defend themselves. In Vietnam, we used the term training 
to mean American troops going out on combat missions when a 
company by indigenous forces. Are they in safe areas training 
or are they out training through engaging the enemy?
    Mr. Yamamoto. I'll defer to my colleague.
    Mr. Vershbow. Congressman, some of the training will take 
place in safe areas at bases far removed from the area of 
conflict, but under the mission approved by the President, our 
forces will have the possibility based upon what the commanders 
judge to be most effective and based on what the partners feel 
would be most effective to deploy to the field to advise and 
assist at the front line level. But we don't believe that it is 
highly likely that our forces will be engaged in hostilities.
    Mr. Sherman. Will we be shooting at the enemy?
    Mr. Vershbow. Only in self defense.
    Mr. Sherman. Will be placing ourselves within 100 yards of 
the enemy such that self defense would obviously be necessary?
    Mr. Vershbow. Congressman, I honestly don't know whether 
they would be within a 100 yards or 200. At this point, it's 
hypothetical because we're just at the early stages.
    Mr. Sherman. I mean the Constitution said provides the 
Congress with authority to declare war and engage in war and 
now you're telling me that that decision will be made by 
lieutenants.
    We've seen in Libya a terrible lesson brought home to the 
American people. If you shred the war powers provision of the 
Constitution, good things happen in the world. My fear is that 
you're going to be teaching the American people this lesson a 
second time, that is to say I think you may very well 
accomplish something good in eastern Africa, but will we do so 
in a way that constitutes a second intentional violation of the 
War Powers Act?
    And both of you have been rather vague on what our forces 
are going to do except that lieutenants and captains and majors 
on the ground will decide what to do. Are these combat officers 
authorized to bring their forces into hostilities?
    Mr. Vershbow?
    Mr. Vershbow. I think the short answer is no, that the only 
condition in which they might use the weapons that they're 
carrying is if they're fired upon in an act of self defense. I 
would ask to defer to my legal experts at the Pentagon as 
exactly what----
    Mr. Sherman. That's as good an answer as I'm likely to get. 
Let me shift over to Mr. Yamamoto. Let's say the mission 
changes and in fact it is necessary to introduce the armed 
forces of the United States into situations where imminent 
involvement and hostilities is clearly indicated by the 
circumstances. Will the administration follow the War Powers 
Act?
    Mr. Yamamoto. We're following the War Powers Act in this 
instance.
    Mr. Sherman. Are you acting in serendipity--acting parallel 
to the War Powers Act or are you conforming to the War Powers 
Act? Is that act the law of the land that you are following?
    Mr. Yamamoto. We are expecting the intent of the U.S. 
Congress in providing that.
    Mr. Sherman. Are you respecting the law or just kind of the 
free-floating intent?
    Mr. Yamamoto. The law.
    Mr. Sherman. Okay, so it's the law of the land and you're 
going to follow it. Is that correct?
    Mr. Yamamoto. Yes.
    Mr. Sherman. Thank you. That's all I need. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Sherman. 
Mr. Rivera, my colleague from Florida is recognized.
    Mr. Rivera. Thank you, Madam Chair, and with your 
permission may I yield to my subcommittee chair, Mr. 
Rohrabacher?
    Chairman Ros-Lehtinen. Absolutely.
    Mr. Rohrabacher. Thank you very much. Let me just state for 
the record, even though we have questions that are pointed 
questions, that should not necessarily indicate whether we 
support or oppose this particular mission.
    I happen to believe that missions like this are positive 
and can play a positive role and a positive strategy in post-
Cold War strategy should be helping other people fight for 
their freedom. The cost is really an important factor because 
the United States can't afford to pay the price to win everyone 
else's freedom in the world.
    The Libyan operation that this administration just engaged 
us in is perhaps a good example of that and if indeed the 
Libyans now and I would challenge the Libyan authorities now to 
step forward and announce that they will repay the United 
States for every dime that we spent in helping them win their 
freedom, we are in a financial crisis. They are sitting on the 
biggest deposits of oil and gas in the world. They should repay 
us. If indeed they do, then it was the right thing for us to 
help the people of Libya overthrow their tyrant.
    If indeed the cost of this mission is repaid to us from 
those who benefit from it, then this type of mission, helping 
others fight against evil forces in the world is justified and 
speaks well of the United States of America.
    What doesn't speak well of us is when we become intertwined 
with dictatorships and that's why I am asking, have been asking 
questions about Ethiopia and I would ask our former Ambassador 
to Ethiopia was there an election held while you were 
Ambassador in Ethiopia?
    Mr. Yamamoto. I came in after the election.
    Mr. Rohrabacher. After the election. Was that election that 
happened right before you became Ambassador, did the winners of 
that election then take over the government or did they arrest 
those who won the election?
    Mr. Yamamoto. To answer your question----
    Mr. Rohrabacher. They arrested those who won the election, 
Mr. Ambassador.
    Mr. Yamamoto. The Parliament took out their seats because 
we negotiated with them behind the scenes to do so. The issue 
was the City Hall. They refused to--they did not take up their 
seats and in the context that they were arrested.
    And we worked with the government and the communities----
    Mr. Rohrabacher. You answered the question is that they 
arrested the ones who won the election. Those who lost the 
election stayed in power. Those who won the elections ended up 
in jail and during that time period, OPEC decided that there 
were several cases in Ethiopia, where American citizens owned 
property and the Ethiopian Government, now run by those who 
didn't win the election, but imprisoned those who did, had 
expropriated property of Americans and was illegally refusing 
to give it back to them.
    Do you believe--and OPEC still has that standard, by the 
way, still is that finding. Do you agree with that finding?
    Mr. Yamamoto. First, the Carter Center declared the 
election, the winners, the winners. They declared that the 
government of Meles had won as was their----
    Mr. Rohrabacher. The government declared that?
    Mr. Yamamoto. No, Carter Center. And we abide by what the 
Carter Center and the international observers had stated. Now 
the second issue is as far as the OPEC, the person you're 
referring to his property was confiscated under the communist--
--
    Mr. Rohrabacher. I'm not talking about a person. I'm 
talking about the general theory that Americans have property 
claims that have not been adjudicated by the Ethiopian 
Government.
    Mr. Yamamoto. We've tried to help adjudicate with the 
government.
    Mr. Rohrabacher. We have. That's correct and that was why 
OPEC declared that Ethiopia was now no longer eligible for OPEC 
loan guarantees. They have not yet changed that policy, 
correct?
    Mr. Yamamoto. Because of restrictions.
    Mr. Rohrabacher. Right. The restrictions were based on the 
fact that American citizens still had property claims that were 
not being met.
    Now back to Ethiopia and Eritrea. There was an agreement 
between Eritrea and Ethiopia to abide by an arbitration. In the 
end, it is my understanding that the arbiters actually decided 
at least for a major part of that in Eritrea's favor, yet we 
permitted the Government of Ethiopia to renege on the agreement 
to follow the arbiters. Is that correct?
    Mr. Yamamoto. No. In 2003, we announced that it was final 
and binding because the parties said so, so therefore we held 
both parties accountable to the results.
    Chairman Ros-Lehtinen. Thank you very much and Mr. Rivera's 
time has expired.
    I want to thank our witnesses for appearing before us. We 
look forward to your written answers and I remind the committee 
members, if you could join me to say hello to Evelyn Apoko. It 
is a true delight and an honor to have you here with us. Thank 
you.
    And the committee is now adjourned.
    [Whereupon, at 11:54 a.m., the committee was adjourned.]
                                     

                                     




















                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Prepared Statement of the Honorable Christopher H. Smith, a 
        Representative in Congress from the State of New Jersey

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
